Case: 19-11305 Date Filed: 07/08/2019 Page: 1 of 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-113054

CHESLEY EUGENE SAUNDERS,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,.
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.

Appeal from the United States District Court
For the Middle District of Florida

ORDER:
Chesley Eugene Saunders's motion for a certificate of appealability is DENIED because
he has not made a substantial showing of the denial of .a constitutional right. See 28 U.S.C.
ยง 2253(c)(2).

uNITEI? STATES CIRCUIT JUDGE

